<html>
<title> - GULF COAST CATASTROPHE: ASSESSING THE NATION'S RESPONSE TO THE DEEPWATER HORIZON OIL SPILL</title>
<body><pre>[Senate Hearing 111-1089]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 111-1089
 
                   GULF COAST CATASTROPHE: ASSESSING
                 THE NATION'S RESPONSE TO THE DEEPWATER
                           HORIZON OIL SPILL

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON

                         HOMELAND SECURITY AND

                          GOVERNMENTAL AFFAIRS

                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2010

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
57-939                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
                    Beth M. Grossman, Senior Counsel
              Jason M. Yanussi, Professional Staff Member
              Jason T. Barnosky, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director for Homeland Security Affairs
          John C. Dettleff, Minority U.S. Coast Guard Detailee
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     4
    Senator McCain...............................................    15
    Senator Landrieu.............................................    17
    Senator Pryor................................................    19
Prepared statements:
    Senator Lieberman............................................    39
    Senator Collins..............................................    42

                               WITNESSES
                          Monday, May 17, 2010

Hon. Janet A. Napolitano, Secretary, U.S. Department of Homeland 
  Security; and Rear Admiral Peter V. Neffenger, Deputy National 
  Incident Commander, U.S. Coast Guard, U.S. Department of 
  Homeland Security..............................................     6
Lamar McKay, Chairman and President, BP America, Inc.............    26

                     Alphabetical List of Witnesses

McKay, Lamar:
    Testimony....................................................    26
    Prepared statement...........................................    53
Napolitano, Hon. Janet A.:
    Testimony....................................................     6
    Joint prepared statement with Admiral Neffenger..............    44
Neffenger, Rear Admiral Peter V.:
    Testimony....................................................     6
    Joint prepared statement with Secretary Napolitano...........    44

                                APPENDIX

Posters submitted by Senator Lieberman...........................    61
Letters submitted by Secretary Napolitano........................    67
Responses to post-hearing questions submitted for the Record 
  from:
    Secretary Napolitano.........................................    70
    Admiral Neffenger............................................   100
    Mr. McKay....................................................   111


                 GULF COAST CATASTROPHE: ASSESSING THE


                   NATION'S RESPONSE TO THE DEEPWATER



                           HORIZON OIL SPILL

                              ----------                              


                          MONDAY, MAY 17, 2010

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:37 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Pryor, Landrieu, Collins, and 
McCain.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good afternoon. The hearing will come 
to order.
    We convene today to assess the private and public sector 
response to what is rapidly and ominously becoming the worst 
oil spill in America's history. We do so as part of this 
Committee's responsibility to oversee the operations of 
government and in this case specifically the incident 
management operations of the Department of Homeland Security 
(DHS) and the U.S. Coast Guard (USCG).
    We are not here to determine how the explosion of the oil 
rig known as Deepwater Horizon happened. Nor do we seek to 
determine which elements of the well failed and who is 
responsible for that. Those are critically important questions, 
but other congressional committees, Executive Branch agencies, 
and private groups have already begun to explore those 
questions.
    Our focus today is on preparedness and response--the 
preparedness and response of our government and the private 
businesses involved to this accident and oil spill after they 
occurred. Were the oil companies and government agencies 
prepared for a deep-water blowout like this one? And how have 
they performed in response? Those are the big questions that we 
hope to begin to answer this afternoon.
    We owe it to the American people to learn from this 
catastrophe not only so that we can do everything we can to 
prevent anything like it from happening again but also having 
in mind our focus on preparedness and response so that we can 
guarantee that if it does happen again, the oil companies and 
the government will not be left to scurry about trying to 
figure out how to stop the oil gushing into the Gulf, like 
firefighters trying to extinguish fires already burning and 
consuming a neighborhood. Instead, hopefully they will have 
learned lessons from this spill and will be much better 
prepared to respond quickly.
    Under the Homeland Security Act and Homeland Security 
Presidential Directive 5, the Secretary of Homeland Security is 
charged with coordinating the Federal response to major 
disasters.
    The Secretary is further charged with coordinating the 
activities of the private sector and non-governmental players 
in response to a disaster and must ensure that disaster 
information is gathered and disseminated to the public, and 
public and private sector officials. The U.S. Coast Guard is 
specifically responsible for managing a marine oil spill clean-
up.
    A host of other agencies of our government--the Minerals 
Management Service (MMS) within the Department of Interior, the 
National Oceanographic and Atmospheric Administration (NOAA), 
and the Environmental Protection Agency (EPA) also have 
critical responsibilities in this kind of crisis.
    And, of course, the private sector companies involved here 
have enormous obligations under law. In fact, much of the 
actual clean-up is being conducted by contractors BP has hired 
to respond to the spill. And as provided by law, the private 
companies responsible for the spill will pay for the clean-up, 
regardless of who is actually carrying out the response.
    We know that the oil companies' Oil Spill Response Plans 
must be filed and approved by the Minerals Management Service 
for wells and by the U.S. Coast Guard for drilling vessels or 
rigs before any drilling can begin. This afternoon, we are 
going to ask whether BP has adequate incident management and 
response plans in place ahead of time to guide their response 
efforts. Did the MMS require such adequate incident management 
and response plans? Did the plans specifically cover the 
consequences of a blowout and oil gushing 5,000 feet under 
water.
    We also want to know what plans were in place to guide the 
Coast Guard and other Federal agencies involved in the 
response. What capabilities did the Department of Homeland 
Security, the Department of Defense, and other agencies make 
available in the early days of the oil spill? Did they act 
quickly enough? And what response capabilities will be made 
available as the disaster continues?
    We are also going to ask whether our government was forced 
to over-rely on the oil company's expertise and information 
here? Did the government have knowledge of the disaster 
independent of what BP was telling it?
    I would say myself that I have spent, since this accident 
and spill, some time studying what the law requires of the oil 
drilling companies and our government and what should be in the 
response plans that were filed and approved by the U.S. Coast 
Guard and the Minerals Management Service for the Deepwater 
Horizon well. And I must say that I emerge with an unsettling 
tentative conclusion and questions that I hope can be answered 
today by our witnesses.
    There is one set of witnesses that are not here, and I must 
say that is from MMS. I regret that the MMS leadership has 
chosen not to appear before our Committee today because really 
they need to be asked the same questions I am going to ask 
Homeland Security, the Coast Guard, and BP, because MMS, as I 
mentioned, must approve or reject the Oil Spill Response Plans 
for wells, which is where this accident occurred, before those 
wells can be drilled. The Secretary of the Interior, the 
department in which MMS is housed, will first appear tomorrow 
before its committee of original jurisdiction, the Energy and 
Natural Resources Committee. But I do want to say here this 
afternoon that, if appropriate and constructive, our Committee 
will ask the Secretary and/or leadership of the MMS to appear 
before us at a later date.
    But here in brief is some of what I have concluded 
tentatively based on my own inquiry and the questions I believe 
most need to be answered by our witnesses. BP was required to 
submit an Oil Spill Response Plan to the MMS. Under the law, 
this plan can be regional or specific to a particular well and 
rig. Almost 10 years ago, in December 2000, BP filed only a 
Regional Response Plan, and the MMS accepted it without asking 
for more. So BP satisfied its legal requirement. Was it 
adequate? And should MMS have asked for more? That regional 
plan was mostly recently revised on June 30 of last year.
    Should the government have been satisfied with only a 
Regional Response Plan instead of one for each well, and a 
Regional Response Plan that was filed almost a decade ago?
    Second, and more important, did our government, through the 
Minerals Management Service, require an Oil Spill Response Plan 
adequate to the widest range of possible dangers, including the 
failure of a blowout preventer? It sure appears that they did 
not.
    The response plan which BP filed and which was approved by 
the Minerals Management Service, as required, included an 
appendix which identifies worst-case spill scenarios and 
proposed methods for responding. Under MMS regulations, the 
plan must address an uncontrolled blowout at a well's highest 
capacity for at least 30 days. And in its plan, BP foresaw such 
a worst-case scenario for a deep-water blowout resulting in 
more than 250,000 barrels of crude oil being discharged every 
day. As people who have been following this crisis know, that 
is much more than is actually being discharged in this horrific 
spill occurring in the Gulf today. The estimates range from a 
low of 5,000 barrels daily to a high of 100,000 barrels daily.
    But here is the problem, as I see it and want to ask about 
it. In its proposed Oil Spill Response Plan approved by the 
Minerals Management Service, BP said it could use booms and 
skimming vessels and dispersants to counter or collect more 
than 490,000 barrels a day. But that was, as I see it, mostly 
from the surface where booms and skimming vessels and 
dispersants are mostly effective. As far as I can tell, those 
methods do not effectively deal with the enormous accumulation 
of oil forming now underwater in the Gulf, reportedly as large 
as 10 miles long, 3 miles wide, and 300 feet thick. Was that a 
foreseen consequence of a deep-water well blowout? And if it 
was, why didn't MMS of the Department of Interior require that 
oil companies have a better plan for responding to that 
consequence?
    And perhaps most important, in the approved BP response 
plans, there appears to be in the end total reliance on the 
blowout preventer as the last line of defense, as if a blowout 
preventer could not fail. But blowout preventers have failed in 
the past, none with anywhere near the consequences of this one, 
but they have failed. And no plans were filed or requested for 
what to do to control and stop a spill if a blowout preventer 
in deep water failed, as it did in the current case. So I want 
to ask, why not?
    What can be done to prevent another failure of a blowout 
preventer in deep water or control the spill more quickly and 
effectively if it does?
    Until those questions are answered satisfactorily, I do not 
see how our government can allow any new deep-water wells to be 
permitted and drilled. And I say that with regret because I 
know how important offshore American oil is to our Nation's 
energy independence. But the U.S. Government has a 
responsibility for protecting the public safety that is more 
important, and that responsibility, I fear, was not fulfilled 
in this case prior to the accident occurring. The result is the 
human, environmental, and economic catastrophe we are now 
witnessing in the Gulf.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Mr. Chairman, as we begin this oversight hearing into what 
is certainly an environmental catastrophe and what is likely to 
be an economic disaster, let us also remember what a personal 
tragedy this incident is for the families of the 11 workers who 
lost their lives after the explosion rocked and then sank the 
Deepwater Horizon oil drilling platform nearly 4 weeks ago.
    We know when this catastrophe began, but none of us knows 
when it will end. Today, 27 days after the fatal explosion and 
fire, oil continues to gush from the wellhead nearly a mile 
below the surface of the Gulf of Mexico.
    Despite recent successful efforts to siphon off a portion 
of the oil spewing from the broken pipe, the waters of the Gulf 
are slowly becoming a sea of crude oil. The expanding plume is 
menacing the fragile ecosystems in the Gulf, potentially 
damaging a vast array of sea life, the environment, and the 
futures of Americans who live and work along the Gulf Coast.
    NOAA has estimated that each day some 5,000 barrels of oil 
are flowing into the waters of the Gulf, but recent estimates 
from experts place that number as high as 70,000 barrels. 
Hundreds of Federal officials, Coast Guard personnel, 
scientists, engineers, and officials from British Petroleum 
search for solutions to fix this urgent problem: How do we turn 
off this faucet of oil that is stuck open nearly a mile under 
the water?
    In the recent weeks, we have learned much about the 
explosion, fire, and challenging response efforts, but there 
are still far too many unanswered questions.
    At today's hearing, we will ask what the government and 
industry could have done differently to avoid this catastrophe. 
We will ask how the continuing damage to the Gulf of Mexico can 
be mitigated and how the spill can eventually be stopped.
    As the Coast Guard Commandant has noted, the technological 
feats and ingenuity needed to stop this leak have parallels to 
the April 1970 rescue mission for Apollo 13.
    In responding to this catastrophe, our Nation faces a 
similar Herculean engineering task, but this time in a deep 
ocean environment that is dark, cold, and unforgiving.
    There are some 90 rigs drilling in the Gulf right now, 
providing 1.7 million barrels of oil a day, or nearly one-third 
of total U.S. production.
    According to the Federal Minerals Management Service, only 
0.7 percent of active drilling platforms are searching for oil 
in waters deeper than 1,000 feet, yet more than 50 percent of 
all leases are in those deep waters. Clearly, oil companies 
believe there is much promise in deep-water drilling; 
therefore, there could be a rapid expansion in this area in 
coming years. In light of the Deepwater Horizon disaster, we 
must examine whether we need special requirements for drilling 
operations in these challenging conditions. And until we figure 
out what went wrong, I believe the Administration is correct in 
calling for a halt to the approval of further drilling in deep 
waters.
    MMS has the responsibility for reviewing and approving Oil 
Spill Response Plans for drilling conducted by offshore rigs 
like the Deepwater Horizon. We need to explore what level of 
preparedness MMS requires of companies seeking to drill in this 
hazardous environment.
    For the Coast Guard to effectively perform its role in 
marine environmental protection, it must work closely with the 
MMS and with the private sector in order to be prepared for a 
worst-case scenario.
    To that end, I was surprised to learn that there currently 
exists no requirement for MMS to share Oil Spill Response Plans 
with the Coast Guard.
    How can that be? It seems to me that mandating concurrent 
Coast Guard approval of these plans is a common-sense change 
that we should make immediately.
    Today, we will also hear more about the Department of 
Homeland Security's coordination of the response to the spill. 
The Federal Government and the private sector have committed 
substantial resources to respond to this spill, and these 
efforts will certainly continue. But concerns have been raised 
regarding the adequacy and timeliness of resources committed to 
this effort in the initial days of the blowout.
    Furthermore, with the Administration's proposed $75 million 
cut in the Coast Guard's budget, it is a question in my mind 
whether the Coast Guard can continue to maintain sufficient 
capabilities to respond to this and future disasters, along 
with performing its myriad other missions. Surely, this 
catastrophe should prompt the Administration to reconsider that 
ill-conceived budget cut. It is always the Coast Guard, whether 
it is Hurricane Katrina, the crisis in Haiti, or the oil spill 
in the Gulf Coast region that is always first to respond, and 
the last thing we should be doing is reducing the number of 
Coast Guard uniformed personnel by more than 1,000 individuals, 
as the Administration's budget proposes.
    Finally, the private sector must accept responsibility for 
this failure in modern engineering, and we need to take a close 
look at the liability caps to see whether they still are 
adequate.
    This oil spill, when it finally does conclude, will be 
recorded as an epic catastrophe whose impacts are likely to be 
felt for a long time to come.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    We will go right to Secretary Napolitano. Secretary, it 
says the obvious that you have one of, in my opinion, the 
toughest jobs in America. I thank you for what you do every 
day, and I appreciate your willingness to come before this 
Committee of oversight of original jurisdiction over your 
Department for this testimony this afternoon. Thank you.

   TESTIMONY OF HON. JANET A. NAPOLITANO,\1\ SECRETARY, U.S. 
  DEPARTMENT OF HOMELAND SECURITY; AND REAR ADMIRAL PETER V. 
   NEFFENGER, DEPUTY NATIONAL INCIDENT COMMANDER, U.S. COAST 
          GUARD, U.S. DEPARTMENT OF HOMELAND SECURITY

    Secretary Napolitano. Thank you, Mr. Chairman and Senator 
Collins and Members of the Committee. I look forward to this 
opportunity to testify about the response to the BP Deepwater 
Horizon oil spill in the Gulf of Mexico.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Secretary Napolitano and 
Admiral Neffenger appears in the Appendix on page 44.
---------------------------------------------------------------------------
    As you noted, Mr. Chairman, some of your questions are 
probably better directed at the Department of Interior or for 
British Petroleum itself, but I will be testifying about what 
happened, what the original response was, and how we 
coordinated the ongoing response. Rear Admiral Peter Neffenger 
is here to answer any questions of a technical nature that I am 
not myself able to answer, although I must say I have learned, 
as we all have, a lot about oil spills over the last 4 weeks.
    I want to begin by thanking the men and women of the Coast 
Guard who have been at this event from its beginning. They have 
worked swiftly, they have worked tirelessly in response to 
what, as Senator Collins rightly noted, is one of the most 
devastating environmental disasters this Nation has ever faced. 
And I also would like to express my own sympathies to the 
families of the workers who were killed in the initial 
explosion. It was a terrible human tragedy, even as we continue 
to deal with the environmental outflow from it.
    It is a constantly evolving situation. The Federal 
Government has brought all resources to bear to limit the 
spills, environmental, economic, and public health impacts, and 
ensure that communities and natural resources of the Gulf Coast 
are restored and made whole by British Petroleum.
    DHS, as you noted, is the principal coordinating agency. I 
believe this may be the first time that the Homeland Security 
Presidential Directive 5 (HSPD-5) has actually been overlaid on 
the National Response Framework, enabling us to coordinate 
across the many Federal agencies and to do the interagency 
consultation and involvement necessary for this spill.
    We are literally working 24/7 in close coordination with 
our State and local partners to ensure the efficient deployment 
of response assets, personnel, and equipment, and the impact to 
date bespeaks of their extensive efforts.
    First, I would like to give you a quick update on the 
current status as of the time I left the National Advisory 
Council (NAC), and then I would like to give you some detail on 
the original response because it is of some important interest 
to many of you.
    More than 17,000 personnel are currently in the Gulf Coast 
region conducting response activities. In addition, more than 
2,100 volunteers have been trained to help deal with any 
potential effects of oil onshore. More than 750 vessels are 
currently responding to the spill. They include skimmers, tugs, 
barges, and recovery vessels that assist in containment and 
clean-up efforts. This is in addition to dozens of aircraft, 
remotely operated vehicles, and other assets being deployed.
    We have deployed 1.7 million feet of boom to date, and we 
have another 1.9 million feet of boom in the supply chain. 
Aircraft are constantly monitoring the integrity of the boom 
and are directing pollution response teams to make necessary 
adjustment to the lines.
    We are able, with these supplies, to ensure that we can 
respond within 24 hours or 5 miles of oil hitting shore, 
whichever would be sooner. Let me just say that the boom is set 
up and deployed in staging areas so that it can be deployed 
within 24 hours or 5 miles of oil, whichever would be sooner.
    More than 6.6 million gallons of oily water have been 
recovered. Approximately 625,000 gallons of dispersant have 
been applied. This includes approximately 45,000 gallons 
applied sub-sea, a method that has been approved by the 
National Response Team (NRT) and for the first time.
    Seventeen staging areas are currently set up to protect 
vital shoreline. We have approved the use of up to 17,500 
National Guard members; more than 1,350 are currently deployed.
    All shipping channels and ports remain open in the Gulf 
Coast region. There are no reported delays or closures to 
shipping. No vessels have required cleaning or decontamination, 
but our teams are on standby if such a need arises.
    Drilling has commenced on both relief wells, which will 
relieve pressure and permanently stop the flow of oil. 
Yesterday BP attempted another test to contain some of the oil 
leaking from the riser by inserting a small pipe into it 
carrying oil directly up to the surface to a colleague vessel.
    As of this morning, BP reports the pipe is recovering some 
oil and gas; there is no confirmation yet on the rate of flow. 
MMS and BP are monitoring this test closely today and adjusting 
pressures to achieve the highest concentrations of oil being 
brought to the surface.
    Now, it is important to note that even if this effort is 
successful, it will not change our posture. We will continue to 
bring all resources to bear until the well is tapped, the oil 
is cleaned up, and the claims are paid.
    That said, we are also actively exploring other methods to 
mitigate the spill's impact. Right now, Federal scientists are 
continuing to provide oversight and expertise to BP as they 
move forward with other strategies to contain the spill and 
stop the flow of oil. And this weekend, BP staged equipment for 
a technique called the top kill, which will pump heavy fluids 
into the well in an attempt to stop the flow of oil. This 
operation is expected to start at the end of this week.
    Now, as I said earlier, the response to this incident began 
immediately and has remained constant and strong over the past 
4 weeks. When the explosion on the Deepwater Horizon occurred 
late at night on Tuesday, April 20, the Coast Guard was first 
on the scene with two cutters and aircraft, beginning a large-
scale search-and-rescue effort. By the morning, 115 crew 
members were accounted for.
    On April 21, we named Rear Admiral Mary Landry the Federal 
on-scene coordinator, stood up the regional response team, 
which is compromised of Federal, State, and local 
representatives, and launched an interagency investigation. In 
other words, from April 21, we were already beginning to bring 
resources to bear in an intergovernmental way to this tragedy.
    On the morning of Thursday, April 22, the oil rig sank, 
with 700,000 gallons of diesel fuel onboard. This prompted the 
immediate activation of the National Response Team, which 
includes the leadership across the Federal Government from the 
White House to DHS to the EPA and the Departments of Defense, 
Commerce, and Interior. I lead the NRT as the principal Federal 
official responsible for coordinating the Federal response.
    That same day, President Obama convened a principals 
meeting about the incident. At this time, there were no 
apparent oil leaks, but 100,000 gallons of dispersants were 
prepositioned. We also initiated intergovernmental calls to 
provide updates on the situation to potentially affected 
communities along the Gulf Coast.
    On Friday, April 23, the sunken rig was found on the ocean 
floor, with an oil sheen estimated at 8,400 gallons nearby. No 
oil leak was apparent, but the NRT convened in order to plan 
ahead in case the situation deteriorated and continued to 
preposition vessels and dispersants and hundreds of thousands 
of feet of boom in preparation for such a worst-case scenario.
    The next day, Saturday, April 24, BP found the first two 
leaks and alerted the Federal Government. The first three 
equipment staging locations were stood up at Venice, Louisiana; 
Biloxi, Mississippi; and Pensacola, Florida. And additional 
personnel and vessels were deployed to the area. We began to 
actually move additional boom there the next day.
    On Wednesday, April 28, the first controlled burn operation 
was conducted, and it was successful. Later that day, BP 
discovered an additional leak from the oil well. By this time, 
the discovery of the third leak, we had already mustered 50 
response vessels; roughly 150,000 feet of boom had been 
deployed; we had applied 56,000 gallons of dispersants; and we 
had over 1,000 personnel working the scene.
    On Thursday, April 29, I designated the events a Spill of 
National Significance, which built on the operational and 
policy coordination already underway from the beginning of this 
response.
    Now, by this day, we had 70 vessels already on scene, 1,100 
personnel, and more boom and dispersant at the ready. On May 1, 
we announced that Admiral Thad Allen, the outgoing Commandant 
of the Coast Guard, would serve as the National Incident 
Commander.
    Now, let me briefly describe the ongoing response 
activities. We are doing everything we can to ensure that vital 
response assets, personnel, and equipment are efficiently and 
effectively deployed and utilized. I have visited each of the 
affected States to see that response efforts are underway and 
firsthand, meeting with governors, mayors, first responders, 
and impacted communities.
    We are working closely with State and local governments 
every step of the way on joint response plans and through the 
command centers. We have daily calls with governors, mayors, 
and Members of the Congress. We are overseeing BP, the 
responsible party, in its efforts to stop the leak at its 
source, reduce the spread of oil, protect the shoreline, and 
mitigate damages.
    Drilling relief wells, which will relieve pressure and 
permanently stop the flow of oil, as I mentioned is underway. 
The Federal Government has mobilized its best scientists and 
industry experts to work with BP to identify other strategies 
for sealing the well, and the President has tasked the 
Department of Energy to provide expertise on that front.
    Above the surface, we continue to conduct controlled burns, 
skim oil, and apply chemical dispersants to reduce the amount 
of oil and break up the slick far offshore. We are deploying 
boom to protect shoreline and wildlife in all the Gulf States 
that could be affected and immediately dispatching clean-up 
teams when oil, generally in the form of tar balls, reaches the 
shore.
    We are keeping the public engaged and making sure that 
people who want to volunteer for clean-up, for helping to 
deploy boom, or in other ways can help. And we are ensuring 
that British Petroleum, as the responsible party, is paying the 
costs of the clean-up and compensating the individuals, 
communities, and businesses that have suffered already as the 
result of this spill.
    Actually, beginning today, their claims can actually be 
filed online, an access point we have been urging BP to make 
available for the past few weeks. So far, over 16,000 claims 
have been filed by affected individuals and businesses. BP has 
paid out over $9.6 million. It has not yet denied a claim.
    Looking ahead, the Administration will continue the strong 
response that we have sustained since April 20. We will 
mobilize every available resource to protect the environment, 
the economy, and public health in the Gulf Coast region, with 
all hands on deck.
    Thank you, Mr. Chairman, for this opportunity to be with 
you today. I will be happy to answer your questions.
    Chairman Lieberman. Thanks very much, Madam Secretary. We 
will do a 7-minute round of questions.
    I appreciate very much the response efforts, really quite 
enormous, that you have described, Secretary Napolitano, that 
the government is involved in and that BP is involved in. But I 
want to go back again to some of the questions I raised in my 
opening statement, and this really goes to preparedness 
uniquely for a problem with a deep-water well. Madam Secretary, 
it may end up that this is technical stuff and you want the 
Admiral to respond--let me just speak as somebody who has been 
watching this. As you watch, and as we watch the company and 
the government, trying desperately to figure out how to close 
this well to stop this spill in the Gulf, we obviously have to 
conclude that people were not prepared to do it, were not 
prepared to deal with this kind of problem. In fact, as the 
company said, quite honestly, they had capped wells before, 
perhaps some that had a failure of the blowout preventer (BOP), 
but never at this depth.
    So why shouldn't the Committee, I, or anybody in this 
country conclude that, in fact, we were not prepared, either 
the government or the company, by demand of the permitting 
authorities, to deal with this kind of blowout of a deep-water 
well?
    Secretary Napolitano. Let me divide it, if I might, Mr. 
Chairman, into before the blowout and after the blowout.
    Chairman Lieberman. OK.
    Secretary Napolitano. I think before the blowout, it is 
clear that there was an assumption that a BOP would never fail, 
and that plans were submitted to the MMS, which is part of the 
Department of Interior, based on that assumption. And I have 
read some of the same materials that you have.
    But from the point of view of an explosion and a spill, 
there have been extensive plans prepared under the National 
Response Framework. There are area contingency plans which are 
put together. They include intensive input from State, 
localities, and parishes. There are Regional Response Plans. 
Then there is the National Response Framework.
    Those plans not only exist but are exercised on a regular 
basis. Indeed, I think there was an Area Response Plan for an 
oil-related incident just in March off the coast of Maine, 
Senator Collins, and there was a national exercise with the 
exact premise of this, which is a major spill in the Gulf 
Coast. That was done in 2002, and Admiral Allen was the 
national commander for that exercise, and, indeed, he is the 
national incident commander here.
    So to the extent that before spill there was overreliance 
perhaps on the BOP, that will become more clear as the 
investigation proceeds. Post-spill, though, there was an 
extensive planning exercise framework in place.
    Chairman Lieberman. Yes. But isn't it true that--and, 
Admiral, I welcome you to come in on this--those kinds of 
drills were not really to deal with a blowout in a deep-water 
well? In other words, there was a lot of work done, and there 
has been enormous effort at response, and I think it has really 
had an effect on the water on the surface. But now we have two 
enormous problems that I do not believe, unless you can 
convince me otherwise, that we were ready to deal with, and the 
company was not either, which is: What do you do when a deep-
water well blows? And then what do you do about the oil under 
the water that is now accumulating in this massive plume?
    Admiral does the Coast Guard--I know you do a lot of 
drills. How do you train for dealing with the consequences of a 
deep-water well explosion?
    Admiral Neffenger. Mr. Chairman, we do not drill this 
specific scenario, no. And what the Secretary was referring to 
was the Spill of National Significance exercise that we do 
every 3 years throughout the country.
    We do, however, drill for massive oil releases, and in this 
case, we did drill in 2002 for a massive oil release from a 
wellhead discharge in the Gulf of Mexico, although it was not 
at all like this specific scenario.
    Chairman Lieberman. And was it as deep as this well?
    Admiral Neffenger. No, sir, it was not.
    Chairman Lieberman. And as Senator Collins said, my 
understanding is that increasingly in the Gulf and elsewhere we 
are using deep-water wells. Is that true based on what you 
know? We are deep-water drilling?
    Admiral Neffenger. Well, I do not know the exact number of 
deep-water wells. I know that it is some 1 percent of all the 
wells that are out there, and I guess I would have to refer to 
MMS for the exact number. But there is an increasing amount of 
activity in the deeper parts of the outer continental shelf, 
yes, sir.
    Chairman Lieberman. I know that the Coast Guard--and 
correct me if I am wrong--has responsibility for approving Oil 
Spill Response Plans that come from what is called the vessel 
or what I would call the rig, that is on the surface of the 
water. And the Minerals Management Service at the Interior 
Department has to approve the plans for a spill from a well, at 
no matter what depth.
    But I wanted to ask you two things. One is, going back to 
something I said in my opening statement, does it make sense 
that BP was unable to file just a Regional Response Plan, which 
presumably would cover both deep-water and more shallow water 
wells, as opposed to a specific response plan for each well, 
particularly the deep-water wells?
    Admiral Neffenger. Well, I can tell you that in our case we 
require specific response plans per vessel that we think might 
have the potential to discharge----
    Chairman Lieberman. OK, that is very important. So you have 
a different approach than MMS does on that.
    Admiral Neffenger. Yes, sir, we do.
    Chairman Lieberman. Well, that is important.
    Let me just ask you finally, because my time is winding 
down--I think the Secretary said it correctly, and I agree with 
her from what I have looked at. There was total reliance put on 
this blowout preventer, but in the end, like so much in life, 
it is a piece of equipment and they fail. In fact, there was 
some evidence, as I said, that the blowout preventers had 
failed in the past--not a large number, and never with a spill 
of this kind. But because the Coast Guard has responsibility 
for marine oil spills, what do you think should be done to try 
to have a level of preparedness that allows for the 
possibility--which may be rare, but as we see now in the Gulf, 
consequences are enormous of a failure of a blowout preventer?
    Admiral Neffenger. Well, Senator, I think that this spill 
raises a lot of questions like that at which we are going to 
have to take a good, hard look. Clearly, this is beyond what we 
anticipated being something that could happen. We certainly 
never anticipated an ongoing release of this magnitude over 
this period of time. So I think that is a very real question 
that has to be addressed.
    I think at a minimum we are going to have to go back and 
look at our planning factors for future revisions of our 
various contingency plans.
    Chairman Lieberman. Madam Secretary, I know that you are 
working with Secretary of Interior Ken Salazar and maybe one or 
two others on this short-term study that the President has 
asked you to do, and I am sure you probably were doing it 
already. I hope that you will take a close look at the special 
requirements for protection that it seems to me we now have all 
learned have to apply to deep-water drilling, including the 
blowout preventers, that I fear were not applied by MMS before.
    Secretary Napolitano. If I might, Mr. Chairman, with every 
incident that occurs, lessons are learned, and I think that is 
one of the reasons why the President has been so very clear 
that further deep-water drilling permits are going to be 
stopped until this can be investigated and assurances can be 
gained that things have been changed so that we do not have a 
duplication of the Deepwater Horizon incident. And I think, 
prudence would dictate that would be what would happen.
    And so I think we are all working together to say, all 
right, what happened here? What powers should MMS have had that 
it did not have? What powers did it have that it did not 
exercise? Was there overreliance on the BOP? What happened with 
the BOP? I think that perhaps there may be a few lawyers that 
get involved in some of that as the litigation happens. But I 
think the President was absolutely right last Friday to say 
this is not about who is responsible for paying. Our work is to 
make sure that this well is capped, to make sure that it is 
cleaned up, to make sure that oil is prevented from hitting 
landfall, and when it does, that it is cleaned up, that all 
claims are paid, and that they are done so promptly. And, to 
me, that is the definition right now of this response and when 
we will declare the response over.
    Chairman Lieberman. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    The Chairman mentioned the divided responsibility for 
approval of the Oil Response Plans between MMS and the Coast 
Guard. In my statement, I raised the question of why wouldn't 
you require the Coast Guard to have some sharing of information 
with the MMS such that the Coast Guard would be responsible for 
some sort of concurrent approval of the plan. It does not make 
a lot of sense at first blush to have one agency responsible 
for approving the plan if it is above the water, for the 
vessel, and a different agency--in a different Department 
even--responsible if the plan applies to the wellhead. Has 
there been any thought to at least broadening the Coast Guard's 
responsibility in this area, Madam Secretary?
    Secretary Napolitano. Senator Collins, I think there will 
be a lot of different things looked at as to who has what 
authorities and what authorities need to be adjusted in light 
of this. And speaking for myself right now, I think that is one 
of the legitimate questions or authorities that we need to be 
looking into.
    Senator Collins. Admiral Neffenger.
    Admiral Neffenger. I would concur with the Secretary. I 
think that, moving forward, we need to look at whether or not 
there needs to be a definitive statement with respect to that 
concurrent review.
    As you know, we do currently have memoranda of 
understanding with the MMS which would allow us to review those 
plans, but there is no requirement to do so.
    Senator Collins. Admiral, this catastrophe is the first 
spill to be classified as a Spill of National Significance 
since that term was first coined in the wake of the Exxon 
Valdez disaster in 1989. During the intervening 20-plus years, 
some have expressed the concern that because our Nation, 
fortunately, has not been forced to respond to a major oil 
spill in such a long time, we have lost the expertise and 
institutional knowledge that is necessary for a quick and 
effective response. And, indeed, in 2004, when the Coast Guard 
did an exercise in this area, the After Action Report had some 
troubling conclusions, and I want to read from that.
    The After Action Report concluded that, ``Oil spill 
response personnel did not appear to have even a basic 
knowledge of the equipment required to support salvage or spill 
clean-up operations. There was a shortage of personnel with 
experience to fill key positions. Many mid-level spill 
management staff had never worked on a large spill, and some 
had never been involved in an exercise.''
    I know that there have been two subsequent exercises since 
2004, including the one hosted by the State of Maine this 
spring, for which the After Action Report has not yet been 
written. But what is your assessment of the expertise that we 
have today in government and in the industry to deal with a 
major spill?
    Admiral Neffenger. Well, Senator, I think you are referring 
to the 2004 drill in Los Angeles, Long Beach Harbor. I was 
actually the unified commander for that exercise, and those 
were my recommendations that you just read that came out of 
that. So I took that very seriously----
    Senator Collins. So you tend to agree with them. 
[Laughter.]
    Admiral Neffenger. Well, I did at the time. I absolutely 
did. And as a result of that, though, we actually did a lot of 
work to improve our ability. And, in fact, if you look at the 
subsequent Spills of National Significance exercises as well as 
the intervening periodic annual and triennial exercises that we 
do, we have rolled a lot of those lessons learned into that so 
that we could improve that capability.
    It is true that we have not had a major spill, but that 
does not keep you from training effectively to prepare for 
that.
    Senator Collins. Do we have that expertise now?
    Admiral Neffenger. Well, clearly, if you are actually 
cleaning up oil, there is an expertise that you develop that 
cannot be developed any other way.
    I think we have capability now, and we have a lot of people 
who have looked at this over an extended period of time, and 
you have capability also in the private industry with respect 
to the oil spill response organizations, and they are required 
to maintain expertise. And you still have a number of ongoing 
smaller spills every single year that do provide an opportunity 
for training people and responding.
    So I do believe that we have the capability, and in the 
case of this spill, I have been very impressed--I spent quite a 
bit of the last 2 weeks down in the Gulf, both flying over the 
area of the spill as well as visiting the incident command post 
and watching the on-scene operations, and I have been very 
impressed with what I have seen.
    Senator Collins. Madam Secretary, you mentioned in your 
statement the Federal resources that have been brought to bear 
in this catastrophe and the fact that the Coast Guard was on 
the scene immediately. As you know, there have been some 
questions about whether resources were adequately and quickly 
deployed to deal with this catastrophe. After all, I assume 
when the Coast Guard was first on site, its mission was search 
and rescue. It was not at that point, and understandably so, 
focused on containing the spill.
    What is your assessment of the resources, the adequacy and 
the timeliness of the resources that British Petroleum and its 
partners brought to the task in those initial days?
    Secretary Napolitano. I thought you were going to ask a 
different question.
    Senator Collins. Well, I thought of asking you whether you 
were satisfied with the Federal response, but I have a feeling 
I know what the answer to that would be, so I decided to ask 
you about the private sector response.
    Secretary Napolitano. Well, yes, and that is one of the 
reasons why I wanted to give you really the tick-tock of the 
Federal response, because recognizing that the explosion 
occurred late on the evening of April 20, then on April 22, the 
rig sinks; on April 24 you begin first seeing signs of leaking 
oil; and then on April 28 is when you had signs of the third 
leak from the riser. So this was an evolving spill as we were 
going along that first week after the explosion. I would like 
to, if I might, reserve judgment on the adequacy of the private 
sector response.
    I will say that British Petroleum leadership, both the 
American head of British Petroleum and the international head, 
were in Washington very quickly. They were immediately assuming 
responsibility as the responsible party, which they should and 
should have. They have been in the command centers and in the 
staging areas. They have been working in terms of clean-up and 
hiring, for example, local fishermen to help deploy boom and 
the rest.
    Whether the exact hours around the explosion and sinking of 
the rig they should have had more or different equipment there 
or more or different kinds of expertise there, it would be 
premature of me to say.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Senator McCain, and then Senator Landrieu, in order of 
appearance. Good afternoon.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you. Thank you for being here, Madam 
Secretary and Admiral. Maybe, Madam Secretary, to lift this up 
a little bit, what is your best-case scenario and worst-case 
scenario about this crisis right now?
    Secretary Napolitano. Well, obviously, we would like to see 
the insertion pipe continue to work and lift oil off the 
surface. We would like to see when and if the top kill 
methodology is deployed, that it works and that oil immediately 
begins to be lifted off of the sea floor as opposed to rising 
to sea surface, and we would like, as they are drilling the 
relief well, that they hit it the first time. In other words, 
when you drill these deep-water wells, my understanding is you 
do not necessarily hit the place you need to hit the first 
time. That would be a best-case scenario.
    We, on the other hand, have from the beginning not planned 
our response based on numbers or based on was it 5,000 barrels 
or 25,000 barrels. Our response is geared to what is necessary 
to fight the oil on the sea, to prevent the oil from hitting 
land, and if it hits land, to clean it up immediately.
    Senator McCain. Worst-case scenario?
    Secretary Napolitano. Worst-case scenario is that we will 
be at this for quite a while.
    Senator McCain. And where do you think we are in either 
scenario?
    Secretary Napolitano. Well, the riser tube is in right now, 
and if it begins to lift oil, as it looks promising that it is, 
and they are able to do the junk fill, that would happen by the 
end of the week. But in terms of drilling of the relief well, I 
think we are some weeks away, well into the summer. I think 
there is a BP witness after me. You might ask him.
    Senator McCain. And where is your level of optimism?
    Secretary Napolitano. I am just taking it day by day, and I 
think that is what we need to do. I think we need to just say, 
look, we are in the middle of this crisis; we are not at the 
beginning. We have been at it a month, almost, but we are not 
near the end, as well. And in my view, our job is to just keep 
moving and just keep assembling, deploying, preparing, 
cleaning, and keeping track of what we are spending because 
ultimately the taxpayers should not have to bear this cost.
    Senator McCain. And you have dispatched 17,000 National 
Guard troops to help with the clean-up and other efforts that 
need to be made in the Gulf of Mexico. Is that right?
    Secretary Napolitano. There have been up to 17,000 that 
have been authorized. I believe there are about 1,000 or so 
that are actually working right now.
    Senator McCain. And what do you expect?
    Secretary Napolitano. It depends on whether we continue to 
see oil reaching the shore. We are going to have to start 
rotating people in and out in terms of doing air flights over 
the boom, monitoring it, and replacing it, because it does not 
last forever out there. It gets broken. We are going to need to 
replace people in terms of staffing the forward operating 
centers and the like. So I think over the course of the summer, 
we will see a number of the Guard deployed in those kinds of 
capacities, sir.
    Senator McCain. Well, if you will indulge me, we think we 
have another crisis on the U.S. Southern Border. I sent you a 
letter back in March, and you sent me a return letter back on 
April 9--well over a month ago, in response to our request that 
the National Guard be sent to the Arizona-Mexico border. And I 
quote from your response: ``The National Guard has the 
potential to contribute additional capabilities and capacities 
to assist law enforcement agencies in their border security and 
law enforcement missions. The use of the Guard to support 
civilian law enforcement efforts is one of the many options 
being considered in the Administration's overall border 
security strategy. I will keep you informed as our force 
multiplication along the Southwest Border continues.''
    Do you have now in the intervening month anything to keep 
me informed about?
    Secretary Napolitano. Yes, I do, actually, because we have 
been working the Southwest Border issue constantly and hard. 
But let me, if I might, Senator--and we will give your staff, 
if we have not already, I apologize, a more extensive briefing. 
And I am going to use as my start date the date of the murder 
of Rob Krentz, who was the rancher down there in Douglas, 
Arizona.
    We have increased flight hours 50 percent over the Tucson 
sector since the day of that murder. We have 24/7 coverage 
there, and we continue to increase on both the fixed and rotor-
wing aircraft that we are applying--just on the Tucson sector. 
I am not talking about the rest of the border.
    We have moved--and I will give you exact numbers--mobile 
surveillance----
    Senator McCain. I do not mean to interrupt, Madam 
Secretary, but I know all those things are going on. I want to 
know about whether you are going to send the National Guard to 
the border or not?
    Secretary Napolitano. Let me, if I might, give you one 
other thing that we have added in addition to numbers, and that 
will be starting at the end of this month. But we are beginning 
again the process of interior repatriation of everybody that we 
pick up.
    But with respect to the Guard, those requests, as you know, 
involve the Department of Defense, they involve the Department 
of Homeland Security, and they involve the White House. That 
request and that analysis remains in that interagency process.
    Senator McCain. And do we have any idea as to when that 
decision might be made?
    Secretary Napolitano. I would like it to be made as soon as 
possible, but I cannot give you a date certain.
    Senator McCain. Well, meanwhile, people's homes are being 
violated, and families cannot take their kids to the bus stop. 
You are very familiar with the issue because you yourself asked 
for the National Guard to go to the Arizona-Mexico Border back 
in 2006. So I do not know what it takes for us to get a 
decision on it. This is a longstanding request--in fact, it was 
originally requested back in 2009. I think the citizens of 
Arizona have the right to know whether the National Guard will 
be sent or not. So I would hope you would expedite that 
process, at least telling us whether or not they are going to 
be deployed.
    Finally, if I might ask, have you had a chance to review 
the new law--S. 1070, that was passed by the State of Arizona?
    Secretary Napolitano. I have not reviewed it in detail. I 
certainly know of it, Senator.
    Senator McCain. So you are not prepared to make a judgment 
on it?
    Secretary Napolitano. Senator, as you know and are well 
aware, that is not the kind of law I would have signed.
    Senator McCain. And for what reason?
    Secretary Napolitano. Because I believe that it is a bad 
law enforcement law. I believe it mandates and requires local 
law enforcement--or puts them in a position many do not want to 
be placed in. When I was dealing with laws of that ilk, most of 
the law enforcement organizations in Arizona at that time were 
opposed to such legislation.
    Senator McCain. Well, I would be pleased, maybe in writing, 
to hear what specific aspect of the law would impede or harm 
law enforcement considering the majority of law enforcement in 
Arizona strongly supports this legislation. And, unfortunately, 
the President of the United States portrayed the law's effect 
as preventing people from going out for ice cream without being 
harassed. This is one of the more outrageous statements I have 
ever heard. And now our own Attorney General has, after 
condemning the law, said that he had not even read it.
    This is an important issue not just in Arizona but around 
this country. I would hope that we would at least have a 
decision on whether the National Guard is going to be sent to 
the border. And I would like to have specifics, if you get 
time. I know it is not in your area of expertise anymore, but I 
know as the former governor of Arizona you have a significant 
interest in Arizona's border security. So I ask that your 
writing state the particular aspects of this law that you find 
objectionable.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator McCain.
    Senator Landrieu, thanks for being here. Once again, 
unfortunately, you have come to one of these inquiries--as you 
did so often during the Hurricane Katrina investigations--with 
a real personal interest on behalf of your State. So I 
appreciate that you are here.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman. My job is made 
somewhat easier because of the work that you and the Ranking 
Member have done, and I mean that sincerely.
    I thank you and Senator Collins for calling this hearing. I 
have actually encouraged the calling of hearings in a variety 
of different committees because obviously the people that I 
represent would like answers. They are extremely concerned, 
everyone in the State, along the Gulf Coast, particularly those 
along the coastal communities, Madam Secretary. So I want to 
begin, Mr. Chairman, by saying that I hope that we will get 
answers to the questions that you asked in your opening 
statement, and I thought that they were excellent and right on 
point.
    Second, Madam Secretary, I want to thank you for your 
multiple visits to Louisiana over the last several months 
before this incident happened, working on the last incident 
that occurred, as well as your time focused on this one, and 
the many senior-level officials that have been on the ground 
from the Coast Guard to the Interior Department to NOAA to EPA. 
You all have not just sent your mid-managers or your newly 
appointed directors, but your Cabinet officials have been there 
and continue to be. And I get good feedback from Republican and 
Democratic local officials because of that, and I want to on 
their behalf express our thanks.
    I would say that the people in Louisiana are very 
interested in a couple of important questions, some of which 
you hit. When will this uncontrolled flow be stopped? Is 
everything being done that can possibly be done? When and how 
will claims be paid? Will they be transparent? Will they be 
adequate? What are the long-term impacts to our fisheries? 
Which is a multi-billion-dollar industry as you know. And how 
can this industry be made safer for the future? I am not going 
to ask you to respond to all four of those now, but in writing, 
I would like some response.
    I would like, Mr. Chairman, to put some things in 
perspective for this situation. I think it is important. I did 
this at the oversight hearing of the Committee on Energy and 
Natural Resources, I did this at the oversight hearing for the 
Committee on Environment and Public Works, and I would like to 
do it today.
    There are 42,645 wells that have been drilled in State and 
Federal waters in the Gulf of Mexico alone. The first deep well 
was drilled 31 years ago--not last week. The first deep well 
was 31 years ago in 1979. From that time until 2008, there have 
been 2,239 deep-water wells drilled averaging approximately 133 
wells per year.
    Getting to your point, Ranking Member Collins, in 1990, you 
are correct, only 4 percent of the oil coming from the Gulf was 
from the deep-water wells, only 4 percent. But today 60 percent 
of the oil coming from the Gulf comes from deep water and ultra 
deep water. The record will show that from 1947 to 2009 only 
175,000 barrels have been spilled out of 16 billion produced. 
That is about one-thousandth of 1 percent of total production.
    So until this happened, the record was pretty good. The 
problem is this blowout is putting more oil in the water in 
1\1/2\ days than has been put in this water in the last decade. 
That is startling to those of us that are fairly familiar with 
the industry, and we are extremely concerned and want it to be 
safer.
    So I support the President's 30-day look. I most certainly 
support tighter controls over deep-water wells and would say to 
this Committee, we pioneered this technology in the Gulf of 
Mexico. We did. It is important that we get this right because 
it has a major impact on how these wells are drilled around the 
world. If ours are safe, most other countries' will be safe, 
and we have an obligation not just to ourselves but to the 
people of the planet, actually.
    So let me ask a couple of things because I am extremely 
interested in how much money our government has spent on 
research and development either through Homeland Security, EPA, 
NOAA, or the Interior Department. Do you have a record for your 
own agency--you will not have it for other agencies--Madam 
Secretary, do you know if any money and, if so, what the dollar 
amount or what percentage is spent on response to a catastrophe 
like this? And if you do not have that exact number, could you 
give it to me in writing and maybe comment generally on if you 
think Homeland Security is doing what it needs to do to be 
better prepared or prepared for an incident like this?
    Secretary Napolitano. Well, as I said earlier, you learn 
from every incident. You begin with the plans, and you exercise 
the plans. But then as any incident coordinator or commander 
will tell you, you have to work the problem at that point. You 
have to go at it. And that is what we have been doing.
    I will tell you, we are accumulating within the Department 
of Homeland Security the costs that we are expending. In our 
Department's response, that includes the Coast Guard. It will 
not be an insignificant sum. And we have asked through the NRT 
that the other Federal agencies keep track of the costs that 
they are expending.
    Since we are really in the middle of a response, as I 
indicated to Senator McCain, I think it would be premature to 
give you an estimate of that.
    Senator Landrieu. OK. I just want to restate on this. I 
know that we do not have the full estimate of what the costs 
are going to be, and I am assuming that BP if going to step up, 
as they have said, and cover all of these costs for 
individuals, for businesses, and for the government at every 
level. And I know that they have been forthcoming with some of 
the requests from our governors, $25 million in authority, up 
to $1 million for some of the counties, which has been 
impressive. But we may need more than that.
    But it is the research and development dollars in these 
major agencies that I am wondering, considering this industry, 
just the industry for bonuses and severance have contributed 
$165 billion to the Federal Treasury since 1955--$165 billion. 
What percentage of our budgets and their budgets--I am going to 
be asking them--are going to research and development on 
specifically safety, equipment, new technology, and clean-up? 
Because we may need, I suggest, to invest more money to make 
sure this never happens again.
    So we are going to try to collect that data, Mr. Chairman, 
and my time has expired. Thank you.
    Chairman Lieberman. Thanks very much, Senator Landrieu. 
Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Mr. Chairman. I want to thank you 
and Senator Collins for leading the effort on this.
    Let me, if I may, Madam Secretary, start with you, and talk 
about the Stafford Act. Typically, a disaster happens, and the 
governors make requests. But I am assuming that you have 
already done quite a bit of work with the governors to 
understand the scope and the nature of their request. Could you 
give us just a little outline on what you think this next few 
weeks might look like down there?
    Secretary Napolitano. Yes, well, we have representatives of 
the governors in all of the various command centers down there, 
as well as we have a daily call with the governors. And we are 
working with them now on what the claims process should be for 
States and localities.
    We are very cognizant of long-term economic damages that 
might pertain such as to some of the fisheries down there that 
have been closed by NOAA already. And so we are working our way 
through that.
    As you know, Senator, this is not a Stafford Act situation. 
This comes under another statute altogether, and the difference 
is huge, because under the Stafford Act the taxpayers of the 
United States pay for the response. Under this one, the 
responsible party is going to pay. And so we are in the process 
of making sure there is a good and easy procedure for those 
claims to be made.
    Senator Pryor. OK. Let me ask Rear Admiral Neffenger, I 
know that in other circumstances, the Federal Emergency 
Management Agency (FEMA), for example, might just burn through 
resources very rapidly on a major disaster. Is that true with 
your agency in how you are dealing with this?
    Admiral Neffenger. Well, as the Secretary mentioned, we are 
spending money every day to manage this response. But as she 
also mentioned, what the Oil Pollution Act of 1990 provides is 
an ability to reach into the Oil Spill Liability Trust Fund, 
the emergency fund of that, to fund some of those initial 
response actions.
    There is an initial $50 million available. We can take a 
one-time transfer of another $100 million into that emergency 
fund, which we have done. We have asked for it, and it has been 
granted. So that provided $150 million to the Federal 
Government for its response actions, and that is primarily 
paying for Coast Guard activities at this point.
    Senator Pryor. And I know in this Committee we have talked 
about the Coast Guard before and how you guys just do great 
work, we saw it down on the Gulf Coast after Hurricane Katrina, 
and we have seen it many times. We recognize that in many ways 
you are underresourced, and you have a backlog of older ships 
that you are trying to update or replace.
    Has the fact that you have been hampered from a budgetary 
sense--can you see that in how you are able to respond to this?
    Admiral Neffenger. Our budget situation has not hampered 
our response initially to this. I mean, obviously, for any 
agency a long-term sustained response to something of this 
magnitude becomes a challenge, and that would be the case no 
matter how many people you have.
    I think, as the Secretary said, sustainability is one of 
the critical concerns that we are looking at right now. How do 
you do this if it were, in fact, to go on for some extended 
period of time?
    We have quite a force surging to that area right now. At 
some point we have to look to what impact and risk position we 
take throughout the rest of the country as we pull those 
resources from other parts of the country.
    Senator Pryor. And I know that your office as well as FEMA 
and many other Federal, State, and local agencies try to 
anticipate various disasters and run through exercises and game 
them out to try to understand what all would happen. Were you 
able to do this? Have you been doing this in years past with a 
major oil event like this?
    Admiral Neffenger. Well, every 3 years, somewhere in the 
country we do what we call a Spill of National Significance 
exercise, and that is a full-scale deployment exercise where we 
simulate a massive oil discharge of some sort. The most recent 
one was up in the Northeast, off the coast of Portland, Maine, 
where we did a Spill of National Significance, simulating a 
large tanker oil spill.
    The one that Senator Collins referred to earlier was one in 
which I had participated in 2004 off the southern coast of 
California--again, simulating a tank ship rupturing and 
spilling a lot of oil. So we do actually exercise for massive 
oil discharges periodically throughout the country.
    And then in every Captain of the Port zone or Federal on-
scene coordinator zone where there is an area contingency plan, 
there is a cycle of exercises that are required to be conducted 
on an annual, biennial, and triennial basis. So I would say 
that we exercise quite a bit, although those full-scale 
exercises are every 3 years, and they are not necessarily in 
every zone every 3 years.
    Senator Pryor. But it sounds like those exercises have paid 
off for you in how you have been able to respond to this.
    Admiral Neffenger. Well, I think they have. Clearly, the 
response that we were able to mount to this bill is a 
significant improvement over what you might have seen 20 years 
ago prior to the Exxon spill, before we had this program in 
place. There is a robust exercise oversight program that we 
have called the Preparedness Response Exercise Program (PREP), 
and they manage this program throughout the country, and they 
watch the results. Then there is a lessons learned process for 
feeding what we learn from those exercises, such as those--my 
words are coming back to me--coming from 2004. And we try to 
feed that into the way in which we would actually respond.
    As you might guess, it is more or less effective depending 
upon how well we can feed that in, but we think that we have a 
pretty robust exercise program, and it is one that connects 
Federal, State, and local officials, resource trustees, and the 
private sector to the extent that they can participate so that 
you at least talk the same language and spend time together 
pre-need, if you will.
    Senator Pryor. Thank you. And thank you very much for your 
answers, and, Mr. Chairman, again, I would like to note that in 
our Subcommittee on State, Local, and Private Sector 
Preparedness and Integration, we are actually having a hearing 
in the near future about this and go into more detail about 
what State, local, and the private sector have been doing for 
this. But thank you very much.
    Chairman Lieberman. Thank you, Senator Pryor. I appreciate 
that your Subcommittee is doing that.
    Madam Secretary, Admiral, I want to ask you if you would 
stick with us and we will do a second short round of no more 
than 5 minutes apiece.
    As I hear the questions back and forth, it seems to me that 
certainly post-Exxon Valdez, the government and the oil 
industry have worked together to get very good at dealing with 
a major spill at the surface. But I still remain to be 
convinced, one, that we did enough to prevent this deep-water 
accident in the well from occurring; and, two, that we are 
ready to deal with the unbelievable consequences of it 
underwater.
    In that regard, I wanted to ask both of you this question. 
We have been reading in the media in the last few days that 
there are scientists who have essentially discovered and are 
reporting giant deep-sea plumes of oil in the Gulf as a result 
of this accident, one of which measured 10 miles long, 3 miles 
wide, and 300 feet thick in spots.
    What are we capable of doing to try to break that up? And 
if we do not, what is going to happen to it? In other words, 
the consequences here for the environment, obviously the Gulf's 
environment, are potentially very severe.
    Secretary Napolitano. Indeed, Mr. Chairman. I think, first 
of all, we have to be careful right now about what is being 
assumed about the undersea plume and not. I think the head of 
NOAA this afternoon put out a statement saying that some of 
those early reports that had been made were not based on 
observation and had not been verified and confirmed, certainly 
by some of the other work that was being done.
    Chairman Lieberman. That is important for us to hear.
    Secretary Napolitano. But, obviously, we need to continue 
to watch the undersea plume, to the extent one develops, in 
addition to the top of the sea spill. So that process is being 
looked at with a consortium of government scientists who 
continue to look at what is going on underneath the surface of 
the ocean, what is happening there. And, again, I think NOAA 
Director, Dr. Jane Lubchenco, really responded very strongly to 
some of these early statements that had not been verified and 
seem inaccurate.
    Now, the EPA has approved the undersea use of dispersants. 
And as I mentioned in my statement, this is very novel. It is 
being done in a very controlled way because every time we do 
something like that, you have to explore the environmental 
trade-offs that are being made. But EPA has a very rigorous 
protocol for how that will be done and the continuous 
monitoring that will happen. And so those undersea dispersants 
are being injected and have been injected over the last days.
    Chairman Lieberman. I appreciate hearing that. And, again, 
it seems to me that we are experimenting because this is 
something unprecedented and I think unanticipated--by the 
regulatory process, anyway, the one that the Minerals 
Management Service imposed on the companies prior to granting 
permission on this well.
    Admiral, let me ask you insofar as the Coast Guard 
obviously has supervision over marine oil spills. Isn't there a 
danger that these enormous plumes will be taken by the current 
and move far away from the actual source of the spill now, and 
that could have very wide ranging and bad environmental 
effects?
    Admiral Neffenger. Mr. Chairman, I think you are referring 
to the out-of-pocket current that is being talked about.
    Chairman Lieberman. Yes.
    Admiral Neffenger. I know that we have been watching that 
very carefully. NOAA is helping us to model the location. 
Currently, it shows to be somewhere in the neighborhood of 40 
to 50 miles from the southern edge of the spill. So we are 
watching that carefully, and as a result of that, we are 
preparing for potential impacts on the southern Florida coast 
and actually around the southern Florida coast.
    But I will say that the other piece of that is it is likely 
the kind of oil that will get picked up in the loop current and 
will be heavily weathered oil. You are likely to see things 
like tar balls forming on the beaches. It is a little easier to 
manage as they come ashore. They come ashore in ways in which 
it is relatively easy to clean up. This is not saying that this 
is a good thing. It is just that I think that it will be a more 
manageable piece that we will deal with there than what we are 
currently looking at out in the Gulf.
    Chairman Lieberman. Let me ask you just quickly, and then 
we will go for a final word to the Secretary. Have you 
encountered any underwater sea plumes of oil of the dimensions 
being discussed here in your experience with the Coast Guard?
    Admiral Neffenger. No, sir. This is the first time I have 
seen a leak at this depth and that poses these kinds of 
complexities.
    Chairman Lieberman. Secretary Napolitano.
    Secretary Napolitano. I was just going to mention that in 
respect to the loop current, the numbers are as the Rear 
Admiral said in terms of distance. We are monitoring it very 
closely. But we are actually treating it as if it were its own 
coastline. In other words, that if we were to see that the oil 
really was beginning to move toward the loop current, we would 
begin doing some things by way of dispersant and booming, 
whatever, as if the loop current itself were a piece of the 
coast.
    Chairman Lieberman. Thank you. My time is up. Senator 
Collins.
    Senator Collins. Thank you.
    Admiral to follow up on the Chairman's line of questioning, 
one of the concerns that I have is that no one seems to really 
know what to do when you have a spill this big, a failure this 
deep underwater. And when we follow the events in the press of 
the various ways that are being used to try to contain the 
spill and plug the well, the impression that you get is that 
there is no protocol for handling a blowout of this nature.
    Is that a correct impression? I am not talking about 
containing the oil and trying to prevent it from getting to the 
shore. We clearly have plans, protocols, and procedures for 
that. I am talking about plugging the well.
    Admiral Neffenger. Well, I understand that perception. I 
will tell you that I have been involved with this now since May 
3. That is when I was named as a deputy to Admiral Allen. And 
the very first trip that I made to the Gulf was to Houston to 
talk to the BP engineers and the scientists who were working on 
the solutions.
    I would say that in the end there is a technological 
solution to this, and we are seeing that begin to play out. I 
think initially it was trying to determine what actually was 
going on down there, and, again, it is because there is no 
human access to the site. It is 5,000 feet below the surface, 
and everything we are seeing is through the lens of a remotely 
operated vehicle. So that makes it challenging just to 
initially assess what you actually have going on.
    And so I think the complexity is that you have a blowout 
preventer that failed to operate as it was designed. We do not 
know why that happened. That will take some time to determine 
that. It may ultimately not be determined until we can get that 
to the surface. The second piece is you have this very 
complicated 5,000 feet of riser laying like spaghetti across 
the sea floor on which there were a number of different leaks. 
That was complicating the determination as to how best to 
approach it. And then a lack of understanding as to what the 
pressures might be inside there.
    So I think it takes time to accumulate the knowledge 
necessary to know what the next step forward was. If you had 
that thing on the surface and this were happening on the 
surface, I think you would have seen a much more rapid ability 
to come to a closure on it. It is the distance below the 
surface that makes it so challenging.
    Senator Collins. The relief well has been held out as the 
ultimate solution if everything else fails, whether it is the 
top hat or the straw-like approach with the riser pipe that we 
are trying right now. Is the relief well a sure thing? It is 
going to take a long time to bring it about, but has this been 
done before?
    Secretary Napolitano. That is probably a question you might 
want to address to the BP witnesses.
    Senator Collins. I will, but I would like to know the 
Admiral's opinion on that.
    Admiral Neffenger. Well, I will qualify it by saying I am 
not a petroleum engineer or a geologist, but I will say that in 
talking to those who are, they have done relief wells before--
and I would concur with the Secretary that is a good line of 
questioning for BP. But the top kill, the technology that they 
are using to shut in the well, pumping fluid into it, is a 
tested method. They have used that many times. In fact, it is a 
traditional method for closing in a well for which you have no 
trouble, when you are just done with it. When you are done with 
the well, you pump this fluid in. So I understand that is a 
regular method for doing so, particularly for a blowout.
    As far as a relief well, I do know that it will be a 
challenge--and the Secretary alluded to the challenge--as you 
try to intersect a very small well bore from a distance of 
18,000 feet.
    Senator Collins. Thank you.
    Madam Secretary, just one comment. As you know, the 
President's budget did include $200 million for the civilian 
criminal trials of Guantanamo Bay detainees in major urban 
areas of the United States. Since the Coast Guard keeps coming 
to the rescue over and over and over again, and since it is 
very difficult to find anyone who agrees with the plan to try 
Guantanamo Bay detainees in major cities, doesn't it make sense 
for the Administration to submit a revised budget that fully 
restores the money cut out of the Coast Guard using those 
funds?
    Secretary Napolitano. Senator Collins, I will be happy to 
transmit that message to the White House.
    Senator Collins. Thank you.
    Chairman Lieberman. It sounds like the beginning of a 
meeting of minds. I hope.
    Senator Landrieu.
    Senator Landrieu. Thank you.
    Madam Secretary, could you comment, if you do not mind, on 
a letter that I understand you received from BP regarding the 
question that you asked them about their intention to fulfill 
their obligations? I have a copy of that letter. It is a public 
record. But would you comment about your understanding of what 
they wrote, which is pretty clear? ``We are prepared,'' they 
say, ``to pay above $75 million on these claims, and we will 
not seek reimbursement from the U.S. Government or the Oil 
Spill Liability Trust Fund. Of course, we reserve our right to 
recover what we pay from other parties that may be 
responsible.''
    You asked for the letter, you received it, so what is your 
understanding of their response?
    Secretary Napolitano. My understanding is that they are 
going to pay all legitimate claims, and by legitimate, I think 
they mean non-fraudulent claims and without respect to any cap, 
whether or not it applies. But they seek their right to recover 
contributions or likewise from other entities such as 
Transocean.
    Senator Landrieu. Let me ask you this about claims, because 
there are obviously now thousands of individuals and businesses 
that are concerned. Some have already been directly affected. 
Some are thinking they may be affected, and because there is so 
much uncertain about the situation--we do not know how long it 
will go on--it is important, I think, for us to try to be as 
clear as we can be about how people might actually receive 
assistance.
    My reading of the Oil Pollution Regulations Act indicates 
that the trust fund may not reimburse claimants for the costs 
they incur in preparing and filing their claim, collecting 
documentation, or paying accountants to verify lost wages.
    Now, I know your office is trying to make this process as 
simple as possible, and I have been told by BP that they are 
trying to make it as simple as possible. But I am wondering if 
you can comment on the availability for technical assistance 
under the existing claims regime. In other words, it is clear 
people cannot be reimbursed for an accountant they might have 
to hire to get their documentation in order. They cannot be 
reimbursed for X, Y, and Z. We are trying to keep people from 
being out-of-pocket for anything.
    So are you familiar with how these claims are actually 
being paid, how the office that reports to you is monitoring 
them? Can you give any comment? And do you maybe support some 
additional resources to help people?
    Secretary Napolitano. Yes, indeed, Senator Landrieu, and 
again this goes to the continual and evolving nature of this, 
and some of the questions that are being posed today are 
evolving answers as well. But there is a claims process. There 
are 800 numbers. There are rollover numbers if you cannot get 
through on that. BP has now opened up a way to file a claim on 
the Internet.
    The issue you raise, well, how does somebody get 
reimbursed? Let us say you own a small business, and you have 
had to now hire somebody to come in and get your records 
together about what lost profits you have had because you were 
not able to stay open during this season. Those are the kinds 
of issues that we will now begin working through.
    We have some great people on the ground there working 
through these issues in the unified command center. You are 
right, they do report to me. They are some of the same people 
who helped us with cleaning up the remaining Hurricane Katrina 
claims that were there when I came into office. And so those 
are the kinds of things that we are working our way through. 
They are the kinds of things, I would suggest, if your 
constituents are asking you, that you should forward those 
questions to us so that we know, hey, this question has arisen 
out there, what is the answer? If there is not an answer that 
we can shoot to you, it means that we have not thought our way 
through it yet, and it will give us the prompt to do it.
    Senator Landrieu. Well, I say that, and I thank you, and I 
will submit it, because we found this to be very helpful in 
providing some grant assistance to nonprofits and others on the 
ground assisting fishermen and small businesses because the 
documentation is important. You have to verify your claims are 
legitimate. But if you do that to some of these businesses, it 
costs them money to prepare those documents. So we just want to 
make sure we do not put businesses along the Gulf Coast at any 
more of a disadvantage than they already are.
    They also need help applying for aid from other government 
programs like the Small Business Association (SBA) loans, and 
this is money that has been appropriated. So I thank you for 
your comments. My time has expired. But I will forward on those 
requests to you.
    Chairman Lieberman. Thanks, Senator Landrieu.
    Senator Pryor has indicated he has no further questions, 
so, Secretary Napolitano and Admiral Neffenger, I thank you for 
your testimony today. We all have a lot of work to do together. 
I appreciate what you are doing now to contain the spill, and 
particularly, Secretary, what you are doing with Secretary 
Salazar to come up with a reform package, is the best way I can 
think about it, to make sure that we better prepare for a deep-
water accident and spill of this kind and do everything we can 
to both prevent it and be better prepared to respond to it. But 
for now, thank you very much for what you are doing every day.
    We will now call to the stand as our second panel Lamar 
McKay, who is Chairman and President of BP America.
    Mr. McKay, good afternoon. I appreciate your being here. I 
appreciate the fact that you have been here the whole 
afternoon. You heard both the questions and the answers and the 
testimony of Secretary Napolitano and Admiral Neffenger, and we 
would welcome your testimony at this time.

    TESTIMONY OF LAMAR MCKAY,\1\ CHAIRMAN AND PRESIDENT, BP 
                         AMERICA, INC.

    Mr. McKay. Thank you. Chairman Lieberman, Ranking Member 
Collins, and Members of the Committee, my name is Lamar McKay, 
and I am Chairman and President of BP America.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McKay appears in the Appendix on 
page 53.
---------------------------------------------------------------------------
    We have experienced a tragic set of events. Nearly 1 month 
ago, 11 people were lost on the Deepwater Horizon rig and 17 
others were injured. My deepest sympathies go out to the 
families and the friends who have suffered such a terrible 
loss.
    Those in the Gulf Coast communities are being severely 
impacted by this, and their livelihoods are being terribly 
impacted every day.
    I have seen the response firsthand, and I have talked with 
the men and the women on the front line. There is a deep, 
steadfast resolve to do everything we humanly can to stop this, 
to stop the leak, to contain the spill, to fight it offshore, 
to fight it at the shoreline, to clean it up, and to deal with 
the economic impacts that it has caused and will cause.
    Now, as a responsible party under the Oil Pollution Act, 
we, BP, will carry out our responsibilities to mitigate this 
environmental damage and the economic impacts of the incident. 
Our efforts are part of a unified command that was established 
within hours of the incident, and it provides a structure for 
our work with the Department of Interior, the Department of 
Homeland Security, other Federal agencies, as well as State and 
local governments. We have pledged our commitment to work with 
President Obama and members of his cabinet, the governors, 
congressional members, State agencies, and local communities of 
Mississippi, Alabama, Louisiana, Texas, and Florida. We 
appreciate the leadership, direction, and resources that they 
are all providing.
    I want to underscore that the global resources of BP are 
committed to this effort and have been from the outset. Nothing 
is being spared. Everyone understands the enormity of what lies 
ahead and is working to deliver an effective response--at the 
wellhead, on the water, and on the shoreline.
    Before I describe our around-the-clock efforts in response 
to the events, I want to reiterate our commitment to find out 
what happened. There are really two key lines of inquiry here. 
First is what caused the explosion and fire onboard the 
Transocean Horizon rig. And, second, why did the rig's blowout 
preventer, the key fail-safe mechanism, fail to shut in the 
well and release the rig?
    We are cooperating with the joint investigation by the 
Department of Homeland Security and the Interior Department as 
well as the investigations by Congress. In addition, BP has 
commissioned an internal investigation whose results we plan to 
share so that we all learn from these terrible events.
    In the meantime, we cannot draw any conclusions before all 
the facts are known. We will continue full speed ahead with our 
investigation, keeping all lines of inquiry open until we find 
out what happened and why. At the same time, we are fully 
engaged in the response to the devastating events.
    Now, our sub-sea efforts to stop the flow of oil and secure 
the well are advancing on several fronts. Our immediate focus 
is on a riser insertion tube that we have talked about just 
prior. This involves placing a tapered riser tube into the end 
of the existing damaged riser, which is a primary source of the 
leak, until a watertight closure is achieved. The gas and oil 
then flows under its own pressure up the riser tube to the 
Enterprise drillship on the surface.
    We successfully tested and inserted the tube into the 
leaking riser, capturing some oil and gas. Although the test 
was temporarily halted when the tube was dislodged, we have 
since successfully reinserted the tube. We are now in the early 
stages of stabilizing the system to process oil and gas onboard 
the Discover Enterprise, and that is 5,000 feet above on the 
water's surface.
    Now, an additional effort is known as a top kill. This is a 
proven industry technique for capping wells that have been 
used--it has been used worldwide, although never in 5,000 feet 
of water. It uses a tube to inject a mixture of multi-sized 
shredded fibrous materials directly into the blowout to clog 
the flow. This procedure is ongoing, and the attempt could take 
1 to 2 weeks.
    We have also developed a modified containment dome 
strategy. As you know, initial efforts to place a large 
containment dome over the main leak point were suspended 
because of a build-up of methane hydrates, which are 
essentially like ice crystals. This prevented a successful 
placement of the dome over the spill area.
    A second smaller containment dome, which is being called 
the top hat, is being readied, if needed, and it is actually on 
the sea bottom. It is designed to mitigate the formation of 
large volumes of hydrates.
    It is important to note, however, that the technology has 
never been used at this depth. We are working to address the 
remaining technological and operational challenges should we 
need it.
    We have also tested injecting dispersant directly at the 
leak on the sea floor under the Environmental Protection Agency 
and Coast Guard approvals. Dispersant acts by separating the 
oil into small droplets that can break down more easily through 
natural processes before it reaches the surface. Sonar testing 
and aerial photographs show encouraging results. The unified 
command, supported by the EPA and other agencies, has approved 
additional sub-sea application subject to ongoing protocols.
    We also began the drilling of the first of two relief wells 
on Sunday, May 2, and as of May 16, this well had reached 
approximately 9,000 feet below sea level. A second drillship 
has arrived on site and yesterday began drilling a second 
relief well. The entire relief well operation could take 
approximately 3 months.
    Finally, we have succeeded in stopping the flow from one of 
the three existing leak points on the damaged well. While this 
may not affect the overall flow rate, it should reduce the 
complexity of the situation to be dealt with on the seabed.
    Now, on the open water, we have a fleet of more than 750 
response vessels that has been mobilized. In addition to using 
approved biodegradable dispersants at the leak point, we are 
also attacking the spill with dispersants pre-approved by the 
EPA and Coast Guard for the surface, applied using planes and 
boats.
    To protect the shoreline, we are implementing what the U.S. 
Coast Guard has called the most massive shoreline protection 
effort ever mounted. Approximately 1.7 million feet of boom are 
now deployed, with more than 1.9 million additional feet 
available. Seventeen staging areas are now in place, and more 
than 15,000 volunteers have come forward to offer their 
services. To ensure the rapid implementation of State 
contingency plans, we have provided $25 million to Louisiana, 
Mississippi, Alabama, and Florida.
    Now, we recognize that beyond the environmental impacts, 
there are also economic impacts on many of the people who rely 
on the Gulf for their livelihood. BP will pay all necessary 
clean-up costs and is committed to paying all legitimate claims 
for other loss and damages caused by the spill.
    We are expediting interim payments to individuals and small 
business owners whose livelihood has been directly impacted by 
the spill: The men and women who are temporarily unable to 
work. Today we have paid out over $13 million to claimants, 
mostly in the form of lost income interim payments. We intend 
to continue replacing the lost income for as long as the 
situation warrants.
    We are responding to claims as quickly and as efficiently 
as possible. Starting this week, we will have in place an 
online claims-filing system, and our call center is open 24 
hours a day, 7 days a week. We have 12 walk-in claims offices 
open in Louisiana, Mississippi, Alabama, and Florida, and we 
will open at least five more this week.
    They are staffed by nearly 700 people with almost 350 
experienced claims adjusters working in the impacted 
communities. We will continue adding people, offices, and 
resources for as long as required.
    We are striving to be responsive and fair. We are taking 
guidance from the established regulations and other information 
provided by the U.S. Coast Guard, which handles and resolves 
these types of claims.
    Now, tragic as this accident was, we must not lose sight of 
why BP and other energy companies are operating offshore, 
including in the Gulf of Mexico. The Gulf provides one in three 
barrels of oil produced in the United States, and it is a 
resource our economy requires.
    BP and the entire energy industry are under no illusions 
about the challenge we face. We know that we will be judged by 
our response to this crisis. We intend to do everything in our 
power to bring this well under control, to mitigate the 
environmental impact, and to address economic claims in a 
responsible manner. No resource available to this company will 
be spared. I can assure you that we and the entire industry 
will learn from this terrible event and emerge from it 
stronger, smarter, and safer.
    Thank you for the opportunity to appear before you today. I 
stand ready to answer your questions.
    Chairman Lieberman. Thanks, Mr. McKay. I appreciate your 
statement.
    I know that the company has been doing everything that it 
has been asked to do, in some sense more, since the accident 
occurred. But I want to come back to the line of questioning 
that worries me as we try to learn from what has happened.
    The fact is that in recent years BP and other energy 
companies have been increasingly drilling for oil in deep 
water. And as BP representatives have indicated, including 
yourself, I think, in this crisis, deep water does present a 
different set of challenges than from other offshore oil 
drilling. Yet as I look at this process, it seems to me that 
the Minerals Management Service did not ask enough of you and 
the other oil companies doing deep-water drilling, and the 
companies did not do enough themselves, including BP, to 
prepare for an accident just like the one that has occurred.
    Very briefly, by way of background, there was a 2005 study, 
referred to in the media the other day, by Jerome Schubert and 
Samuel Noyanaert, actually financed, at least in part, by BP--
maybe you are familiar with it--that said that ``Blowouts will 
always happen no matter how far technology and training 
advance.''
    Another press report, which I have not confirmed but I 
believe is correct, says that blowout preventers have failed in 
as many as 14 other accidents since 2005, although obviously 
none as consequential as this.
    So the Minerals Management Service required an Oil Spill 
Response Plan. But as I look at it, it mostly seems to be a 
plan related to effects on the surface, and although in one 
part of it you were required to address the effect of an 
uncontrolled blowout resulting in oil flowing for 30 days from 
deep water--although I do not think at this depth--there is 
nothing in the plan that I see that addresses the critical 
question about how you stop the leak at 5,000 feet under the 
water.
    As you look back at this now, as your company has been 
jolted--even though it is a massive company, its economic 
strength has been threatened by this accident. Why wasn't more 
done as more deep-water drilling was done to deal with the 
consequences of an accident if it occurred at that depth?
    Mr. McKay. Well, this, as you know, is a unique and 
unprecedented event. The Oil Spill Response Plans that are 
required by regulation are extensive, and that forms the 
foundation of the surface spill response plan, and I can talk 
about that in detail if you would like.
    In the sub-sea, as you rightly point out, there are no 
major regulations requiring the sub-sea intervention plans. I 
think as we look at this accident in hindsight, I think we will 
need to look at what type of sub-sea intervention capability is 
planned or could be available.
    What I would like to say is the sub-sea intervention 
resources that have been brought to bear are tremendous. We 
have three deep-water rigs working simultaneously in an 
unprecedented situation.
    Chairman Lieberman. I agree with that, and I do not fault 
you on the resources you brought. I think you brought 
everything you possibly could. But, to me, the tragedy of this 
is that when that dome was first lowered over the leak and it 
was rendered ineffective by the gas hydrates forming at such 
low temperatures and high pressure, it struck me that if you 
had been asked by our government or chose yourself to test that 
system before an actual blowout, you would have known that the 
gas hydrates would form and that would be ineffective.
    So we have been watching--and you must feel as much 
distress as the rest of us--this scurrying around to try to 
find a way to close the leak at that depth. And I just feel 
that either the government should have demanded--I speak here 
as part of the Federal Government--or the Minerals Management 
Service should have demanded before giving the permit that 
there be plans to deal with this kind of explosion, or you 
should have in your own economic self-interest done it 
yourself.
    Mr. McKay. Could I comment on that?
    Chairman Lieberman. Please.
    Mr. McKay. The work that is going on has simultaneous paths 
to try to get this under control. You mentioned the cofferdam 
or the hydrates. We knew hydrates could be a problem. That was 
something that we could try to get it to work, because this 
fluid is very specific, and you do not know until you try it.
    I would just say that one of the complicating factors in 
this situation is that we have a blowout preventer that should 
have worked; we have manual intervention on that blowout 
preventer that did not work; and, unfortunately, we have a 
lower marine riser package on top of it that did not release. 
So where in many blowout situations--and you have mentioned 14, 
but around the world there have been more, especially onshore--
you can get on top of the blowout preventer. This specific 
situation has a riser and leaks along the riser. It is a very 
unique situation.
    I do think the point is right, though. I do think that 
understanding sub-sea intervention capability and having a plan 
is a model. Where are the resources? Where do you get them? How 
can the industry respond? I do agree that I think that is going 
to need to be looked at.
    Chairman Lieberman. Well, I appreciate it, and I certainly 
agree that is the case. Do you also agree that too much 
reliance was put on the blowout preventer here? I am not an 
expert at this, obviously. I have studied it now since this has 
happened. I know more than I knew before. But, as I say, a 
blowout preventer is a piece of equipment. Equipment sometimes 
fails, particularly operating in unusual environments, and 
5,000 feet under the water surface was one of them.
    So as you look back at it, did you and the government put 
too much faith in the blowout preventer as the last line of 
defense?
    Mr. McKay. Well, it is one of several lines of defense, and 
it is what is considered the fail-safe mechanism when you get 
into an emergency situation. There are other lines of defense 
that have to fail before you get there, like the hydrostatic 
head of the mud, the cement and casing, and then well control 
procedures, and the blowout preventer is considered to be the 
methodology when you get in trouble to shut the well in and 
release that rig and let it get away.
    I cannot comment on too much reliance until we know what 
has happened.
    Chairman Lieberman. A final question, and then I will yield 
to Senator Collins. On the relief wells being dug, I understand 
that--this is quite remarkable, really. There are two of them, 
and there are two ways to get to where the problem is way under 
the surface of the water to see essentially which gets there 
first.
    This is the same question asked of the Coast Guard on the 
first panel. Do you have a high degree of confidence that this 
is--if everything else fails before then--the one method of 
stopping the leak that will work?
    Mr. McKay. We do have a high level of confidence that the 
relief wells will permanently secure the well.
    Chairman Lieberman. And is that based on previous 
experience with such relief wells?
    Mr. McKay. Yes, relief wells are used to control blowouts 
and permanently seal wells, and, yes, we do have a high degree 
of confidence.
    Chairman Lieberman. Of course, the ominous note here--I 
appreciate hearing that--is that, as you said quite openly and 
directly, it could take 3 months. So if all else fails, this 
well could be pouring oil into the Gulf until--do you count 
from the day of the accident or the day the relief well 
drilling started? It must be the day it started.
    Mr. McKay. Yes. Roughly 3 months to drill each relief well.
    Chairman Lieberman. Yes, so this could take us until the 
end of July or early August.
    Mr. McKay. It could, yes. Of course, we are doing 
everything we can, and there are many things we are doing to 
try to stop it ahead of that.
    Chairman Lieberman. Understood, so let us hope and pray 
that one of those works a lot sooner than July or August. 
Senator Collins.
    Senator Collins. Mr. McKay, I know that BP is trying 
everything it can think of to stop this well from gushing, but 
it feels like you are making it up as you go along, that no one 
really knows what will plug this well, what will stop the oil 
from gushing, particularly since this is so complex because you 
are dealing with a leak in the riser pipe, and other locations 
so it is not one source of leaking.
    What I am trying to better understand is the response plan. 
I do not doubt at all that you are throwing everything possible 
at this problem, that you have extremely talented engineers 
that are working night and day, and that you are fully 
cooperating with the government. But I am concerned that it 
seems that no one had really planned for this particular 
scenario. Is that accurate? Is that perception correct?
    Mr. McKay. Let me first say this is an industry effort. It 
is not just BP. We have over 90 companies working just in the 
Houston office to try to get the interventions that we have 
talked about done.
    There was not a response plan per se for an individual 
blowout with a riser on the seabed. The resources that are 
brought--relief wells are conventional and the plan for relief 
wells was not submitted, but it was available to be worked up 
very quickly.
    The other options that we are pursuing, the first and 
foremost was to get that blowout preventer closed, get it to 
actuate. We had to do that in a situation where it has never 
been done before, and we have run into some issues with the 
blowout preventer that did not allow that actuation to happen.
    While we were doing that, we were pursuing containment and 
collection systems--the first one being the cofferdam that did 
not work very well--relief wells, and the surface responses 
that we planned, as well as a way to kill the well from the 
top, from the blowout preventer.
    Now, one thing the Admiral mentioned earlier I just want to 
highlight because he is right. It has taken awhile to, in 
effect, see inside that blowout preventer and understand 
pressures. We have used gamma rays and pressure probes, anodes, 
to understand what is happening in that blowout preventer. Then 
we can delineate and reduce risk for the next set of 
interventions.
    So, unfortunately, we are as frustrated as anyone. It has 
taken time. But, believe me, the risk analysis around every 
single intervention is extremely important, and we are being 
diligent about that. It is transparent as well. So everyone is 
seeing exactly what we are doing.
    So I would say we are not scrambling around. No, I cannot 
say there was a plan to hit all these different intervention 
methods. But those were triggered from day one, pretty much, to 
get going on all these parallel paths as quickly as we possibly 
can.
    Senator Collins. Now, BP did file a Regional Response Plan 
for the Gulf of Mexico, and in that plan, the worst-case 
scenario that you present for offshore drilling is when a 
highest capacity well experiences an uncontrolled blowout 
volume of 250,000 barrels per day. So that is way more even 
than this terrible blowout. So what is different? Is it the 
depth of the water? And this plan, although it envisioned even 
greater volume, was it in shallow water? What is the 
difference?
    Mr. McKay. Well, the response plan that you mention 
contemplates worst-case scenarios, and the planning itself 
envisions what resources are available in the Gulf Coast 
region, how would they be organized, how would they be 
deployed, details about who would be called when, and how the 
resources would be brought to bear. That plan, that model, is 
the foundation, whether it was a higher-rate volume or the 
current one, and we are enacting that plan with the Coast Guard 
and Homeland Security and other agencies, NOAA, as you have 
heard.
    That plan has formed the basis of what we are doing, and 
that plan has been robust, and I think it is the largest effort 
ever mounted. And I think it is having a big impact on what is 
happening with the spill.
    Senator Collins. But did that plan speak to how you contain 
the oil once it is spilled as opposed to how you stop the oil?
    Mr. McKay. No. I am sorry. That particular plan under 
current regulation is more a Surface Spill Response Plan. You 
are correct, yes.
    Senator Collins. That is my point, because it seems like we 
are now in a scenario that was not envisioned.
    Mr. McKay. I think what I would say is we are learning a 
lot through this, and I do think we are going to have to 
revisit what plans mean in terms of intervention and the 
ability to contain or deal with something when it happens.
    Senator Collins. I am told that two countries, at least--
Norway and Brazil--require a back-up mechanism to communicate 
with blowout preventer that is known as an acoustic switch and 
that is not required by U.S. regulations. One, would that have 
helped in this case? And, two, should it be required?
    Mr. McKay. I think in answer to the first question, we do 
not think so because we had three triggering systems for the 
blowout preventer and then manual intervention. So the acoustic 
device is essentially another triggering device.
    Obviously, it will need to be looked at through the 
investigations to see if that could add some positive 
redundancy into the system. I do not know, but I do not believe 
in this case it would have made a difference.
    Senator Collins. Do you think that U.S. regulations should 
be reformed to require this as a back-up, even if it would not 
have helped in this situation?
    Mr. McKay. I think the regulations should be looked at, and 
anything that would make this a lower probability event and 
safer should be looked into.
    Senator Collins. There has been a report that the battery 
on the blowout preventer was dead. Have you confirmed that to 
be the case?
    Mr. McKay. Well, the blowout preventer, the rig, the riser, 
the drill pipe, and all of treatment equipment are property of 
Transocean, so I am not familiar with the condition of the 
batteries. Obviously, I think multiple investigations will look 
into that.
    Senator Collins. So you do not know whether or not that is 
accurate?
    Mr. McKay. I do not know.
    Senator Collins. Are there other special requirements that 
MMS should impose on companies that are drilling in deep water 
that are different from the requirements for shallow-water 
drilling?
    Mr. McKay. There are extensive regulations around deep 
water, very extensive.
    Senator Collins. But are there additional ones that you 
think we should take a look at?
    Mr. McKay. Well, we are, of course, learning with this, and 
we are going to share everything we learn with industry and the 
government. But I do think some of the topics that should be 
looked at we have already talked about, sub-sea intervention 
capability and plans, testing blowout preventers in enhanced 
ways, maybe extra redundancy, as we mentioned, in various 
systems. Those are the questions that are being asked, and the 
investigations will, of course, help us understand what 
happened. And I am confident we will figure out what happened. 
That is a very important thing, and I am confident of that.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    First, I would like to, if I may, Mr. Chairman, submit 
Senator Landrieu's questions for the record. She had to slip 
out.
    Chairman Lieberman. Without objection, we will forward them 
to the witnesses. Thank you.
    Senator Pryor. Thank you, Mr. Chairman.
    I do have some questions, Mr. McKay, and if you covered 
this in your opening statement, I missed it. But does BP yet 
have an estimate of the cost to the company?
    Mr. McKay. No.
    Senator Pryor. And the law says that BP is the responsible 
party, and you have confirmed that today, and I appreciate 
that. And you mentioned that you will pay for the clean-up and 
all legitimate claims. That sounds good and I love that, but a 
year from now, will we be sitting here either in this Committee 
or through constituent services like Senator Landrieu has, and 
learn of industries that are not covered by this indirect 
losses, things like that? Tell me your intention.
    Mr. McKay. Our intention is to cover all legitimate claims 
associated with this incident. We have been very clear that BP 
resources are behind this. We have been clear in writing to 
accept our duties as a responsible party. We have formally 
accepted that. We intend to fully live up to that. We intend to 
stick with this. We are being what I think is fair, responsive, 
and expeditious about how we are addressing claims now. We 
intend to continue that. So our intention is exactly as stated.
    Senator Pryor. Let me ask about what might be the 
definition of a legitimate claim, but it also might be subject 
to argument, and that would be, say, a seafood restaurant that 
gets its food from the Gulf. If this is so disruptive to them, 
would they qualify for a legitimate claim?
    Mr. McKay. We would look to the guidance under the Oil 
Pollution Act, and the Coast Guard has acted for years in terms 
of determining legitimacy of claims and the reach of claims, 
and we will look to that for guidance.
    Senator Pryor. And I understand that the way these drilling 
platforms work out in the Gulf is that BP's name is the big 
name, but there are lots of subcontractors and lots of other 
companies involved with this operation. Will BP be looking to 
those companies as well or the individuals look to those 
companies separately? Tell us how that works.
    Mr. McKay. Well, let me just say very clearly: We are 
concentrating on two things. First is to get this leak stopped 
and get it cleaned up; and, second, we as a responsible party 
are going to deal with economic impacts. We will put blame, 
liability, and those kind of things over to the side. That is 
not our concern right now.
    Senator Pryor. And let me ask about the environmental 
damage that this spill will cause. Like Senator Lieberman said 
a few moments ago, there are these reports about plumes of oil 
underwater. To me, that is counter intuitive because I thought 
oil was lighter than water and it would go to the surface. Can 
you tell us about that?
    Mr. McKay. Well, I am not familiar with the details of the 
claims. I do understand NOAA put out a press release today 
questioning exactly what that means. Let me just explain. This 
oil does disperse naturally as it is rising in the water 
column, so not all of it makes it to the surface, and it does 
disperse. Those particles are very small, and they disperse 
through the currents and through the water column and gradually 
dissipate.
    So I think what we are interested in is if someone has data 
on a plume in terms of extent, density, or anything else, we 
want to get that data. But right now I think we ought to be 
cautious in terms of defining what plumes are out there and how 
they are behaving.
    Senator Pryor. Right. You mentioned something just in 
passing in your testimony about sonar. Can you actually use 
sonar to determine where the oil is in the water?
    Mr. McKay. To a certain extent. We have used it at the sub-
sea leak point, and it has been indicative and instructive in 
terms of when we put the sub-sea dispersant in, and you can 
tune it to different sizes of particles, and, yes, it is 
helpful.
    Now, I do not know in a dispersed system, but certainly 
right at the leak point it has been helpful, yes.
    Senator Pryor. And also the dispersing agents you are 
talking about, there have been some reports that these might be 
more toxic than the oil. Could you comment on that?
    Mr. McKay. The dispersants that are being used on the 
surface and sub-sea--the surface ones were pre-approved and the 
sub-sea ones are very similar. Those are biodegradable. They 
are less toxic than the oil itself. And just to let everyone 
know, one of the good things about sub-sea, we believe the 
efficiency of the dispersant, the amount of dispersant used per 
volume of oil contact, it is quite a bit lower than surface 
dispersant use.
    Senator Pryor. I do have a concern--and I know a lot of 
others do as well--about the impact this will have on sea 
creatures, things like coral and sponges that apparently are 
filters for the ocean, and apparently these will not survive in 
an oil-type environment. Do you have any estimate yet on what 
we are looking at here?
    Mr. McKay. No, we do not, but there is a process to 
understand that, and that is through NOAA as the lead Federal 
trustee, which does the study that we pre-fund and are 
participating in to understand what is called the Natural 
Resources Damage Assessment, and that includes baselining as 
well as potential damage assessment.
    Senator Pryor. It is easy for us to think of oil that 
washes up on the shore, and on the beaches. But is that the way 
oil does down on the sea floor? Does it cling to the sea floor?
    Mr. McKay. Some oil, as I understand it--and I am not an 
expert, but some of the oil will drop to the bottom and be 
biodegraded. Some will potentially make it to the shore. This 
particular oil is a very light oil, so as it is weathered 
either on the surface or in the currents, it goes to an 
emulsion, then it can turn into tar balls. So what we have 
seen, where we have seen anything at all, are emulsions, or tar 
balls.
    Senator Pryor. And are there ways to collect those out on 
the water?
    Mr. McKay. In the water? I cannot say. I do not know.
    Senator Pryor. But is it safe to say that the environmental 
consequences of this spill may go on for years?
    Mr. McKay. I think we do not know the length of the 
consequences, but what we do know is we will be working with 
the Federal agencies to understand, monitor, and deal with 
those consequences.
    Senator Pryor. I do hate to ask this next question, but I 
think we need to ask it, and that is, what would the effects of 
a hurricane be? What would happen to all this oil in a 
hurricane?
    Mr. McKay. Well, we are obviously aware of when hurricane 
season is upon us, and we are doing everything we can to 
obviously get this stopped before then. Should a hurricane 
occur, it is difficult to project, but we will be dealing with 
it in the best way we can with moving resources out of the way 
and dealing with any of the impacts if oil was put ashore.
    Senator Pryor. Mr. Chairman, I have one last question in 
this round.
    Chairman Lieberman. Go right ahead.
    Senator Pryor. But it sort of follows with that last 
question, and that would be: To date, what percentage of the 
oil has been recaptured? Do you have a chart here that shows 
different ways to either get rid of the oil or recapture the 
oil? What percentage of it have we been successful in getting 
rid of to date?
    Mr. McKay. I do not have a number, but I think it is a 
relatively small percentage.
    Senator Pryor. OK.
    Chairman Lieberman. Thanks, Senator Pryor.
    Mr. McKay, thanks. I appreciate your testimony. I 
appreciate all you are trying to do. I must say that in terms 
of big lessons learned here, I end up this hearing where I 
began it, which is that oil companies have been doing a lot 
more deep-water drilling, and you are doing it to respond to a 
demand, and in a real sense, our economy and people 
individually are all benefiting from the production of oil from 
offshore, in American territory; but that we went ahead and did 
that without proper preparation for how to respond if there was 
an accident that deep under the water. And this has been--to 
call it a wake-up call just understates it. It is a horrific 
wake-up call for the country, for the Gulf, and for you as a 
company. And I wish that you had done more to prepare for this, 
but I must say, as a Member of the U.S. Senate, I hold the 
Federal Government responsible for continuing to issue permits 
for deep-water drilling without demanding that the companies 
who receive those permits be prepared to deal with the effects 
of an accident, an explosion, to be better prepared to stop the 
leak underwater than obviously you are now because you never 
had to do this before, and also to deal with the environmental 
consequences and be prepared not only to stop the leak but to 
deal with the accumulation of oil at those depths in a way that 
it is not clear to me that we are able to do.
    So those are the big lessons learned. They are painful 
lessons for everybody, including your company. I must say, just 
to restate what I said before, I hope and pray that everything 
you are trying to do to stop this oil well from pouring oil 
into the Gulf works. I hope one of those things works so we do 
not have to wait the 3 months until the relief well hopefully 
will work.
    Senator Collins.
    Senator Collins. Mr. Chairman, I just wanted to make one 
final comment. All of us have raised some tough questions 
today. We are obviously extremely concerned about the crisis 
and the long-term implications. But in the interest of 
fairness, I do want to acknowledge that BP and Mr. McKay have 
fully cooperated with our inquiry, and have not tried to get 
out of testifying today. And, sadly, that stands in sharp 
contrast with the government agency, the MMS, which refused to 
come testify today. So I think it is only fair to acknowledge, 
unhappy though we are with the situation we are in with the 
Gulf, that Mr. McKay has fully cooperated with our inquiry. 
Thanks for bringing that up, Senator Collins. I agree. I 
appreciate your cooperation, and I do not appreciate the 
failure of MMS to come.
    Secretary Salazar will testify tomorrow before the Senate 
Energy Committee. I understand the prerogative the agency has 
to go before its Committee of jurisdiction first. I hope the 
Committee Members will ask him some of these questions about 
the conduct of the Minerals Management Service in issuing 
permits and what kinds of demands they make for Oil Spill 
Response Plans. I also want to restate the intention of Senator 
Collins and me to call the Minerals Management Service before 
our Committee at some appropriate time in the not too distant 
future to answer those questions if they are not answered 
tomorrow.
    In the meantime, I thank you.
    Mr. McKay. Thank you.
    Chairman Lieberman. The record of this hearing will remain 
open for 15 days for the submission of additional statements 
and questions.
    With that, the hearing is adjourned.
    [Whereupon, at 4:54 p.m, the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 57939.001

[GRAPHIC] [TIFF OMITTED] 57939.002

[GRAPHIC] [TIFF OMITTED] 57939.003

[GRAPHIC] [TIFF OMITTED] 57939.004

[GRAPHIC] [TIFF OMITTED] 57939.005

[GRAPHIC] [TIFF OMITTED] 57939.006

[GRAPHIC] [TIFF OMITTED] 57939.007

[GRAPHIC] [TIFF OMITTED] 57939.008

[GRAPHIC] [TIFF OMITTED] 57939.009

[GRAPHIC] [TIFF OMITTED] 57939.010

[GRAPHIC] [TIFF OMITTED] 57939.011

[GRAPHIC] [TIFF OMITTED] 57939.012

[GRAPHIC] [TIFF OMITTED] 57939.013

[GRAPHIC] [TIFF OMITTED] 57939.014

[GRAPHIC] [TIFF OMITTED] 57939.015

[GRAPHIC] [TIFF OMITTED] 57939.016

[GRAPHIC] [TIFF OMITTED] 57939.017

[GRAPHIC] [TIFF OMITTED] 57939.018

[GRAPHIC] [TIFF OMITTED] 57939.019

[GRAPHIC] [TIFF OMITTED] 57939.020

[GRAPHIC] [TIFF OMITTED] 57939.021

[GRAPHIC] [TIFF OMITTED] 57939.022

[GRAPHIC] [TIFF OMITTED] 57939.023

[GRAPHIC] [TIFF OMITTED] 57939.024

[GRAPHIC] [TIFF OMITTED] 57939.025

[GRAPHIC] [TIFF OMITTED] 57939.026

[GRAPHIC] [TIFF OMITTED] 57939.027

[GRAPHIC] [TIFF OMITTED] 57939.028

[GRAPHIC] [TIFF OMITTED] 57939.029

[GRAPHIC] [TIFF OMITTED] 57939.030

[GRAPHIC] [TIFF OMITTED] 57939.031

[GRAPHIC] [TIFF OMITTED] 57939.032

[GRAPHIC] [TIFF OMITTED] 57939.033

[GRAPHIC] [TIFF OMITTED] 57939.034

[GRAPHIC] [TIFF OMITTED] 57939.035

[GRAPHIC] [TIFF OMITTED] 57939.036

[GRAPHIC] [TIFF OMITTED] 57939.037

[GRAPHIC] [TIFF OMITTED] 57939.038

[GRAPHIC] [TIFF OMITTED] 57939.039

[GRAPHIC] [TIFF OMITTED] 57939.040

[GRAPHIC] [TIFF OMITTED] 57939.041

[GRAPHIC] [TIFF OMITTED] 57939.042

[GRAPHIC] [TIFF OMITTED] 57939.043

[GRAPHIC] [TIFF OMITTED] 57939.044

[GRAPHIC] [TIFF OMITTED] 57939.045

[GRAPHIC] [TIFF OMITTED] 57939.046

[GRAPHIC] [TIFF OMITTED] 57939.047

[GRAPHIC] [TIFF OMITTED] 57939.048

[GRAPHIC] [TIFF OMITTED] 57939.049

[GRAPHIC] [TIFF OMITTED] 57939.050

[GRAPHIC] [TIFF OMITTED] 57939.051

[GRAPHIC] [TIFF OMITTED] 57939.052

[GRAPHIC] [TIFF OMITTED] 57939.053

[GRAPHIC] [TIFF OMITTED] 57939.054

[GRAPHIC] [TIFF OMITTED] 57939.055

[GRAPHIC] [TIFF OMITTED] 57939.056

[GRAPHIC] [TIFF OMITTED] 57939.057

[GRAPHIC] [TIFF OMITTED] 57939.058

[GRAPHIC] [TIFF OMITTED] 57939.059

[GRAPHIC] [TIFF OMITTED] 57939.060

[GRAPHIC] [TIFF OMITTED] 57939.061

[GRAPHIC] [TIFF OMITTED] 57939.062

[GRAPHIC] [TIFF OMITTED] 57939.063

[GRAPHIC] [TIFF OMITTED] 57939.064

[GRAPHIC] [TIFF OMITTED] 57939.065

[GRAPHIC] [TIFF OMITTED] 57939.066

[GRAPHIC] [TIFF OMITTED] 57939.067

[GRAPHIC] [TIFF OMITTED] 57939.068

[GRAPHIC] [TIFF OMITTED] 57939.069

[GRAPHIC] [TIFF OMITTED] 57939.070

[GRAPHIC] [TIFF OMITTED] 57939.071

[GRAPHIC] [TIFF OMITTED] 57939.072

[GRAPHIC] [TIFF OMITTED] 57939.073

[GRAPHIC] [TIFF OMITTED] 57939.074

[GRAPHIC] [TIFF OMITTED] 57939.075

[GRAPHIC] [TIFF OMITTED] 57939.076

[GRAPHIC] [TIFF OMITTED] 57939.077

[GRAPHIC] [TIFF OMITTED] 57939.078

[GRAPHIC] [TIFF OMITTED] 57939.079

[GRAPHIC] [TIFF OMITTED] 57939.080

                                 <all>

</pre></body></html>
